Case: 19-11179

Document: 00515662407

Page: 1

Date Filed: 12/04/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
December 4, 2020

No. 19-11179
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Antonio Serrano-Perez,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-77-1
Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:*
Antonio Serrano-Perez appeals the sentence imposed following his
guilty plea conviction for illegal reentry. The district court sentenced him
within the guidelines range to 120 months of imprisonment and three years
of supervised release.

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Serrano-Perez v. United States
Petition Appendix

1a

Case: 19-11179

Document: 00515662407

Page: 2

Date Filed: 12/04/2020

No. 19-11179

Because error was preserved, our review of the substantive
reasonableness of a sentence is for an abuse of discretion. See Gall v. United
States, 552 U.S. 38, 51 (2007); see also Holguin-Hernandez v. United States,
140 S. Ct. 762, 766–67 (2020). Our review is highly deferential. See United
States v. Lugo-Lopez, 833 F.3d 453, 461–62 (5th Cir. 2016). We presume that
a within-guidelines sentence is reasonable and that the district court has
considered all of the statutory sentencing factors.

See United States

v. Jenkins, 712 F.3d 209, 214 (5th Cir. 2013); see also 18 U.S.C. § 3553(a).
The record reflects that the district court considered Serrano-Perez’s
contentions and rejected them. Ultimately, Serrano-Perez simply disagrees
with the sentence chosen by the district court and so fails to overcome the
presumption that the district court imposed a reasonable sentence. See
United States v. Ruiz, 621 F.3d 390, 398 (5th Cir. 2010).
As Serrano-Perez concedes, his argument challenging the imposition
of a sentence longer than two years for a violation of § 1326 is foreclosed by
Almendarez-Torres v. United States, 523 U.S. 224 (1998). See United States v.
Wallace, 759 F.3d 486, 497 (5th Cir. 2014); United States v. Pineda-Arrellano,
492 F.3d 624, 625–26 (5th Cir. 2007).
The district court’s judgment is AFFIRMED.

Serrano-Perez v. United States
Petition Appendix

2

2a

Case 4:19-cr-00077-A Document 1 Filed 03/20/19

Page 1 of 3 PageID 1

IN THE UNITED STATES DISTRICT COU
FOR THE NORTHERN DISTRICT OF TE
FORT WORTH DIVISION
UNITED STATES OF AMERICA
No.

v.
ANTONIO SERRANO-PEREZ (01)
INDICTMENT
The Grand Jury Charges:
Count One

Illegal Reentry After Deportation
(Violation of8 U.S.C. § 1326(a) and (b)(l))
On or about March 11, 2019, in the Fort Worth Division of the Northern District of
Texas, defendant Antonio Serrano-Perez, an alien, was found in the United States having
previously been deported and removed from the United States on or about June 5, 2014,
and the defendant had not received the consent of the Attorney General of the United States
or the Secretary of the Department of Homeland Security, to reapply for admission to the
United States.

Indictment - Page I of 2

19-11179.9

Serrano-Perez v. United States
Petition Appendix

3a

Case 4:19-cr-00077-A Document 1 Filed 03/20/19

Page 2 of 3 PageID 2

In violation of8 U.S.C. § 1326(a) and (b)(l).

FOREPERSON

ERIN NEALY COX
UNITED STATES ATTORNEY

LEVI THOMAS
Assistant United States Attorney
Texas State Bar No. 24083963
80 I Cherry Street, Suite 1700
Fort Worth, Texas 76102
Telephone: 8 I 7-252-5200
Facsimile: 817-252-5455

Indictment - Page 2 of 2

19-11179.10

Serrano-Perez v. United States
Petition Appendix

4a

